     Department of Homeland Security

     ��������������������������



 Delaware’s Management of State Homeland Security 

          Program Grants Awarded During 

          Fiscal Years 2010 Through 2012 





OIG-14-23                             December 2013

                         OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security
                              Washington, DC 20528 / www.oig.dhs.gov


                                      DEC 20 2013

MEMORANDUM FOR:              Brian E. Kamoie
                             Assistant Administrator
                             Grant Programs Directorate
                             Federal Emergency Management Agency

FROM:                        Mark Bell
                             Acting Assistant Inspector General for Audits

SUBJECT:                     Delaware’s Management of State Homeland Security
                             Program Grants Awarded During Fiscal Years 2010
                             Through 2012

Attached for your information is our final letter report, Delaware’s Management of
State Homeland Security Program Grants Awarded During Fiscal Years 2010 Through
2012. The report contains no recommendations.

Consistent with our responsibility under the Inspector General Act, we will provide
copies of our report to appropriate congressional committees with oversight and
appropriation responsibility over the Department of Homeland Security. We will post
the report on our website for public dissemination.

Major contributors to this report are Brooke Bebow, Director; Lisa Vonder Haar, Audit
Manager; Duane Albert, Program Analyst; Elizabeth Kelleher, Program Analyst; Andre
Marseille, Program Analyst; and John Kohler, Independent Referencer.

Please call me with any questions, or your staff may contact John E. McCoy II, Deputy
Assistant Inspector General for Audits, at (202) 254-4100.

Attachment
                                              OFFICE OF INSPECTOR GENERAL
                                                  Department of Homeland Security


   Background
   The Department of Homeland Security (DHS) provides Federal funding through the
   Homeland Security Grant Program (HSGP) to help State and local agencies enhance
   capabilities to prevent, protect against, respond to, and recover from terrorist attacks
   and other disasters. Within DHS, the Federal Emergency Management Agency (FEMA) is
   responsible for administering the HSGP. The HSGP includes the State Homeland Security
   Program (SHSP), which funds preparedness needs such as planning, organization,
   equipment, training, and exercises. Appendix B contains more information about the
   HSGP.

   Public Law 110-53, Implementing Recommendations of the 9/11 Commission Act of
   2007, as amended, requires the DHS Office of Inspector General (OIG) to audit individual
   States’ management of SHSP and Urban Areas Security Initiative grants. This report
   responds to the reporting requirement for the State of Delaware. Appendix A contains
   details on the objective, scope, and methodology of this audit.

   HSGP guidance requires a State Administrative Agency to administer and manage grant
   funding awarded under the HSGP. The State Administrative Agency also allocates funds
   to local, regional, and other government entities. The Delaware Emergency
   Management Agency (DEMA) serves as Delaware’s State Administrative Agency.
   Delaware is identified as one jurisdiction for security and emergency management
   purposes.

   During fiscal years (FY) 2010 through 2012, FEMA awarded the State of Delaware
   approximately $14.8 million in SHSP funds as shown in figure 1.

                               Figure 1. Delaware SHSP Funding Levels, FYs 2010 Through 2012
                                $8,000,000

                                $7,000,000

            Dollars Awarded





                                $6,000,000
                                $5,000,000
                                $4,000,000
                                $3,000,000
                                $2,000,000
                                $1,000,000
                                        $0
                                                   FY 2010               FY 2011             FY 2012
                                SHSP Award       $6,727,997            $5,229,096           $2,801,316

                                              Source: DHS OIG analysis based on FEMA data

www.oig.dhs.gov
                                                  2                                      OIG-14-23

                            OFFICE OF INSPECTOR GENERAL
                               Department of Homeland Security


   The objectives of this audit were to determine whether Delaware distributed,
   administered, and spent SHSP grant funds strategically, effectively, and in compliance
   with laws, regulations, and guidance. We also addressed the extent to which grant funds
   enhanced Delaware’s ability to prevent, prepare for, protect against, and respond to
   natural disasters, acts of terrorism, and other manmade disasters.

   Results of Audit
   Delaware distributed, administered, and spent SHSP grant funds strategically,
   effectively, and in compliance with laws, regulations, and guidance. SHSP funds
   appeared to enhance Delaware’s ability to prevent, prepare for, protect against, and
   respond to natural disasters, acts of terrorism, and other manmade disasters. Delaware
   developed a State Homeland Security Strategy, which incorporated the five mission
   areas from the DHS National Preparedness Guidelines. As required by FEMA, it
   conducted a Threat Hazard Identification and Risk Assessment in 2012 and used the
   results to inform its State Preparedness Report. DEMA has sufficient internal controls
   over grant funds.

   Local government officials have demonstrated a willingness to work together to
   improve the ability of various agencies to respond during an emergency. Delaware’s
   agencies have prioritized interoperability in communications for efficiency and
   enhanced response capabilities. They have also consolidated program needs to leverage
   SHSP funds and share resources obtained through the grant program. These efforts
   demonstrate Delaware’s effective use of grant funding and overall successful program
   administration.




www.oig.dhs.gov                              3                                       OIG-14-23

                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


   Appendix A
   Objectives, Scope, and Methodology
   The DHS OIG was established by the Homeland Security Act of 2002 (Public Law 107-
   296) by amendment to the Inspector General Act of 1978. This is one of a series of audit,
   inspection, and special reports prepared as part of our oversight responsibilities to
   promote economy, efficiency, and effectiveness within the Department.

   The HSGP encompasses several interrelated Federal grant programs as described in
   appendix B. However, we only reviewed the SHSP funding of equipment and programs
   for compliance during this audit. Our scope included $14,758,409 in SHSP grants
   awarded for FYs 2010 through 2012. Delaware does not have a FEMA-designated Urban
   Area; therefore, it did not receive any Urban Areas Security Initiative grant funds during
   this period. Our audit methodology included work at DEMA. We also visited four State
   agencies that received equipment purchased with SHSP funding.

   To achieve our audit objectives, we analyzed data, reviewed documentation, verified
   equipment (onsite and remotely), and interviewed State officials involved in the
   management and administration of the SHSP grant. We reviewed the plans developed
   by the State to improve preparedness and respond to hazards.

   We judgmentally selected and reviewed grant expenditure files representing $3.6
   million (48 percent) of FYs 2010 through 2012 SHSP funds that had been spent at the
   time of our audit. The sample represents 39 of the 159 agencies that received SHSP
   funding through DEMA in FYs 2010 through 2012 at the time of our audit.

   We relied on computer-processed data provided by FEMA and DEMA for information on
   grant funds awarded and draw downs from FYs 2010 through 2012. We conducted
   limited tests on this data and compared it with source documentation to ensure that the
   data were sufficiently reliable to be used in meeting our audit objective.

   We conducted this performance audit between February and November 2013 pursuant
   to the Inspector General Act of 1978, as amended, and according to generally accepted
   government auditing standards. Those standards require that we plan and perform the
   audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
   findings and conclusions based upon our audit objectives. We believe that the evidence
   obtained provides a reasonable basis for our findings and conclusions based upon our
   audit objectives.



www.oig.dhs.gov                                4                                        OIG-14-23

                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


   Appendix B
   Homeland Security Grant Program Overview
   State Homeland Security Program
   SHSP supports the implementation of State Homeland Security Strategies to address the
   identified planning, organization, equipment, training, and exercise needs to prevent,
   protect against, respond to, and recover from acts of terrorism and other catastrophic
   events.

   Urban Areas Security Initiative Program
   Urban Areas Security Initiative program funds address the unique planning,
   organization, equipment, training, and exercise needs of high-threat, high-density Urban
   Areas, and assists them in building an enhanced and sustainable capacity to prevent,
   protect against, respond to, and recover from acts of terrorism.

   Operation Stonegarden
   Operation Stonegarden funds are intended to enhance cooperation and coordination
   among local, tribal, territorial, State, and Federal law enforcement agencies in a joint
   mission to secure the United States borders along routes of ingress from international
   borders to include travel corridors in States bordering Mexico and Canada, as well as
   States and territories with international water borders.

   Metropolitan Medical Response System Program
   The Metropolitan Medical Response System program supports the integration of
   emergency management, health, and medical systems into a coordinated response to
   mass casualty incidents caused by any hazard. Successful Metropolitan Medical
   Response System grantees reduce the consequences of a mass casualty incident during
   the initial period of a response by having augmented existing local operational response
   systems before an incident occurs.

   Citizen Corps Program
   The Citizen Corps mission is to bring community and government leaders together to
   coordinate the involvement of community members and organizations in emergency
   preparedness, planning, mitigation, response, and recovery.

   Note: The Metropolitan Medical Response System and Citizen Corps Programs are no
   longer funded as discrete grant programs beginning with the FY 2012 HSGP.




www.oig.dhs.gov                                5                                        OIG-14-23

                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


   Appendix C
   Report Distribution
   Department of Homeland Security

   Secretary
   Deputy Secretary
   Chief of Staff
   Deputy Chief of Staff
   General Counsel
   Executive Secretary
   Director, GAO/OIG Liaison Office
   Assistant Secretary for Office of Policy
   Assistant Secretary for Office of Public Affairs
   Assistant Secretary for Office of Legislative Affairs
   Respective Component Head, if not the Addressee
   Chief Privacy Officer

   Federal Emergency Management Agency

   Administrator
   Assistant Administrator, Grants Programs Directorate
   Federal Emergency Management Agency Audit Liaison
   Grant Programs Directorate Audit Liaison

   Office of Management and Budget

   Chief, Homeland Security Branch
   DHS OIG Budget Examiner

   Congress

   Congressional Oversight and Appropriations Committees, as appropriate




www.oig.dhs.gov                                  6                         OIG-14-23

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this document, please call us at (202) 254-4100, fax your
request to (202) 254-4305, or e-mail your request to our Office of Inspector General
(OIG) Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov.

For additional information, visit our website at: www.oig.dhs.gov, or follow us on Twitter
at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to:

       Department of Homeland Security 

       Office of Inspector General, Mail Stop 0305 

       Attention: Office of Investigations Hotline 

       245 Murray Drive, SW 

       Washington, DC 20528-0305 


You may also call 1(800) 323-8603 or fax the complaint directly to us at
(202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
